UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1538
HAKIM JAKUIN MORRIS,
Plaintiff - Appellant,
v.
JOCELYN B. CATE; MARCINE HOLMES; DEPARTMENT OF SOCIAL
SERVICES, (DSS),
Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at
Charleston. David C. Norton, District Judge. (2:19-cv-02814-DCN)
Submitted: September 24, 2020

Decided: October 20, 2020

Before HARRIS and RICHARDSON, Circuit Judges, and TRAXLER, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.
Hakim Jakuin Morris, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Hakim Jakuin Morris appeals the district court’s order accepting the
recommendation of the magistrate judge and dismissing without prejudice his 42 U.S.C.
§ 1983 complaint. We have reviewed the record and find no reversible error. Accordingly,
we affirm for the reasons stated by the district court. Morris v. Cate, No. 2:19-cv-02814DCN (D.S.C. Feb. 7, 2020). We dispense with oral argument because the facts and legal
contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

2

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
Hakim Jakuin Morris,

) C/A: 2:19-2814-DCN-BM
Plaintiff,

)
)
)

) REPORT AND RECOMMENDATION
vs.

)
)

Jocelyn B. Cate, Marcine Holmes, Department
of Social Services (DSS),

)

Defendants.

)
)
)
)

Plaintiff Hakim Jakuin Morris, proceeding beq §e and in forma pauperis, appears to
brings this action pursuant to 42 U.S.C. § 1983. Under established local procedure in this judicial
district, a careful review has been made of the pE2 se Complaint pursuant to the procedural
provisions of 28 U.S.C. § 1915 and § 1915A, the Prison Litigation Reform Act, Pub.L.No. 104-134,
110 Stat. 1321 (1996), and in light of the following precedents: Denton v. Hernandez. 504 U.S. 25
(1992), Neitzke v. Williams. 490 U.S. 319 /1989V Haines v. Kemer. 404 U.S. 519 (1972), Nasim
v. Warden, Maryland House of Corr.. 64 F,3d 951 (4thCir. 19951. and Todd v. Baskerville. 712 F.2d
70 (4th Cir. 1983). Pro se complaints are held to a less stringent standard than those drafted by
attorneys, Gordon v. Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978), and a federal district court is
charged with liberally construing a pro se complaint to allow the development of a potentially
meritorious case. Erickson v. Pardus. 551 U.S. 89,93 (2007) /citing Bell Atlantic Coro, v. Twomblv.
550 U.S. 544, 555-56 (2007)); Hughes v. Rowe. 449 U.S. 5, 9 (1980).
However, even when considered pursuant to this liberal standard, for the reasons set
forth hereinbelow this case is subject to summary dismissal. The requirement of liberal construction
does not mean that the court can ignore a clear failure in the pleading to allege facts which set forth

a claim cognizable in a federal district court. See Weller v. Deo’t of Soc. Servs.. 901 F.2d 387 (4th
Cir. 1990): see also Ashcroft v. Iqbal. 556 U.S. 662 (2009) [outlining pleading requirements under
the Federal Rules of Civil Procedure],
Background
Plaintiff alleges in his Complaint (ECF No. 1) and attachment1 (ECF No. 1-1) that
his Fifth and Fourteenth Amendment rights have been violated because his driving privileges were
suspended for his failure to pay his child support obligations. He claims he was denied his right to
drive without a court hearing by the appropriate court. Plaintiff submitted a copy of a letter (dated
July 27,2019) from the South Carolina Department of Motor Vehicles titled “Official Notice” which
informs Plaintiff that beginning August 11,2019, he may not drive commercial or non-commercial
motor vehicles because of delinquent child support in violation of SC Code Ann. § 63-17-1060
(Out-of-compliance procedures; notice).2 The letter also informs Plaintiff that he may be eligible for
'Plaintiff titles his attachment “Amended Complaint”, but this unsigned pleading appears to
be an attachment to the original Complaint rather than a true amended complaint. To the extent that
Plaintiff is attempting to amend his Complaint, he must file a proposed amended complaint pursuant
to Fed. R. Civ. P. 15. Plaintiff is reminded that an amended complaint replaces the original
complaint and should be complete in itself. See Young v. City of Mount Ranier. 238 F.3d 567,572
(4th Cir. 2001)[“As a general rule, an amended pleading ordinarily supersedes the original and
renders it of no legal effect.”j(citation and internal quotation marks omitted); see also 6 Charles
Allan Wright et al.. Federal Practice and Procedure 6 1473 (3d ed. 2017)[“A pleading that has been
amended under Rule 15(a) supersedes the pleading it modifies and remains in effect throughout the
action unless it subsequently is modified, Once an amended pleading is interposed, the original
pleading no longer performs any function in the case....”]. The undersigned has considered both the
Complaint (ECF No. 1) and attachment (ECF No. 1 -1) in preparing this report and recommendation.
2The statute provides, in part:
(B) Upon receiving the notice provided for in subsection (A), the licensee may:
(1) request a review with the division; however, issues the licensee may raise
at the review are limited to whether the licensee is the individual required to
pay under the order for support and whether the licensee is out of compliance
(continued...)
2

a route restricted license if he has a job or is enrolled in a university or college. He requests the return
of his driving privileges and also appears to request monetary damages. See ECF No. 1 at 5, ECF
No. 1-1 at 24-25.
Discussion
Plaintiff fails to allege sufficient facts to state a constitutional or other federal claim,
as his allegations are so generally incomprehensible and filled with what could only be considered
by a reasonable person as unconnected, conclusory, and unsupported comments, that it is unclear
what is to be made of them. £ge Hagans v. Lavine. 415 U.S. 528, 536-537 (1974) [Noting that
federal courts lack power to entertain claims that are “so attenuated and unsubstantial as to be
absolutely devoid of merit”]; see glsa Livingston v. Adirondack Beverage Co.. 141 F.3d 434 (2nd
Cir. 1998); Adams v. Rice. 40 F.3d 72 (4th Cir. 1994)[Affirming dismissal of plaintiffs suit as
frivolous where allegations were conclusory and nonsensical on their face]. Other than naming
Defendants in the caption of his Complaint and making general assertions that the family court and
DSS have removed his driving privileges, restricted his movement, and neglected his “right to
locomotion” (ECF No. 1 -1 at 4), Plaintiff merely asserts generalized allegations without stating how
each Defendant was involved and what each Defendant did that allegedly caused him harm or

2(...continued)
with the order of support; or
(2) request to participate in negotiations with the division for the purpose of
establishing a payment schedule for the arrearage.
S.C. Code Ann. § 63-17-1060 (B). Plaintiff has not alleged that he made such a request. Although
Plaintiff appears to allege that the South Carolina statute fails to define license, the applicable statute
[Article 7. Child Support Enforcement Through License Revocation (Refs & Annos)] specifically
provides that “license” means “a driver’s license and includes, but is not limited to, a beginner’s or
instruction permit, a restricted driver’s license, a motorcycle driver’s license, or a commercial
driver’s license.” S.C. Code Ann. § 63-17-I020(5)(b).
3

f

violated his rights (including the dates and places of that involvement or conduct). Plaintiff fails to
include sufficiently clear factual allegations against any of the named Defendants of any personal
responsibility or personal wrongdoing in connection with the alleged violation of any of his
constitutionally protected rights,3
Thus, Plaintiffs Complaint is in violation of the directive in Federal Rule of Civil
Procedure 8(a) that pleadings shall contain “a short and plain statement” of the basis for the court’s
jurisdiction and of the basis for a plaintiffs claims against each defendant. See Bell Atlantic Corp.
v. Twomblv. 550 U.S. at 555 [requiring, in order to avoid dismissal, ‘“a short and plain statement
of the claim showing that the pleader is entitled to relief,’ in order to ‘give the defendant fair notice
of what the ... claim is and the grounds upon which it rests.’”]. As such, the Complaint is both
frivolous and fails to state a claim on which relief can be granted as to the named Defendants. See
Potter v. Clark. 497 F.2d 1206,1207 (7th Cir. 1974) [“Where a complaint alleges no specific act or
conduct on the part of the defendant and the complaint is silent as to the defendant except for his
name appearing in the caption, the complaint is properly dismissed.”]; Newkirk v, Circuit Court of
City of Hampton. No. 3:14CV372-HEH, 2014 WL 4072212, at *2 (E.D. Va. Aug. 14, 2014)
[complaint subject to summary dismissal where no factual allegations against named defendants
within the body of the pleading]; §ge also Krvch v. Hvass. 83 F, App’x 854, 855 (8th Cir. 2003);
Black v. Lane. 22 F.3d 1395, 1401 n.8 (7th Cir. 1994); Walker v. Hodge. 4 F.3d 991, 1993 WL

3Much of Plaintiff s attachment appears to be copied from the amended complaint in another
litigant’s case with language that does not appear to refer to incidents concerning Plaintiff (for
example, Plaintiff states that “I Travis Deon Bey have a right....” - ECF No. 1-1 at 8). See Bev v.
State of South Carolina. No. 18-2799 (D.S.C). A federal court may take judicial notice of the
contents of its own records. See Aloe Creme Labs.. Inc, v. Francine Co.. 425 F.2d 1295,1296 (5th
Cir. 1970).
4

360996, at * 2 n.2 (5th Cir. 1993): Banks v. Scott. 3:13CV363,2014 WL 5430987, at *2 (E.D. Va.
Oct. 24,2014). In the absence of substantive allegations of wrongdoing against each of the named
Defendants, there is nothing from which this court can liberally construe any type of plausible cause
of action arising from the Complaint against them. See Cochran v. Morris. 73 F.3d 1310 (4th Cir.
1996)[statute allowing dismissal of in forma pauperis claims encompasses complaints that are either
legally or factually baseless).
To the extent that Plaintiff is attempting to appeal the results of a state court action,
the current action should be dismissed because federal district courts do not hear “appeals” from
state court actions. See District of Columbia Court of Appeals v. Feldman. 460 U.S. 462, 476-82
(1983)[a federal district court lacks authority to review final determinations of state or local courts
because such review can only be conducted by the Supreme Court of the United States under 28
U.S.C. § 1257); Rooker v. Fidelity Trust Co.. 263 U.S. 413 (1923). To rule in favor of Plaintiff on
claims filed in this action may require this court to overrule and reverse orders and rulings made in
the state court. Such a result is prohibited under the Rooker-Feldman doctrine. Davani v. Virginia
Den’t. of Transp.. 434 F.3d 712, 719-720 (4th Cir. 2006); see Exxon Mobil Corp. v. Saudi Basic
Industries Corp.. 544 U.S. 280,293-294 (2005); Jordahl v. Democratic Party of Va.. 122 F.3d 192,
201 (4th Cir. 1997).4
4The Rooker-Feldman doctrine is applicable both to claims at issue in a state court order and
to claims that are “inextricably intertwined” with such an order. £eg Exxon Mobil. 544 U.S. at 284.
Plaintiff has not alleged any facts to indicate that this is a case where the federal complaint raises
claims independent of, but in tension with, a state court judgment such that the Rooker-Feldman
doctrine would not be an impediment to the exercise of federal jurisdiction. See Vicks v. Qcwen
Loan Servicing. LLC. 676 F. App’x 167 (4th Cir. 2017)[district court erred in applying RookerFeldman doctrine to bar appellants’ claims where the claims did “not seek appellate review of [the
state court] order or fairly allege injury caused by the state court in entering that order”]; Thana v.
(continued...)
5

Alternatively, to the extent that Plaintiff has a pending state court action, the
abstention doctrine set forth in Younger v. Harris. 401 U.S. 37,91 (1971), and its progeny preclude
this Court from interfering with the ongoing proceedings, as Plaintiff can raise these issues in the
state court proceedings. The Younger doctrine applies to civil proceedings that “implicate a State’s
interest in enforcing the orders and judgment of its courts.” Sprint Commc’ns. Inc, v. Jacobs. 571
U.S. 69, (2013)(intemal quotation marks omitted). Thus, to the extent that Plaintiff is seeking
injunctive or declaratory relief, his claims are barred under the Younger doctrine, although the
abstention principles established in Younger may not require dismissal of a claim for damages. See.
&£» Lindsay v. Rushmore Loan Mgmt.. Servs.. LLC. No. PWG-15-1031,2017 WL 167832, at * 1,
4 (D. Md. Jan. 17,2017)[“causes of action for damages, such as Plaintiffs’, may be stayed but not
dismissed on Younger abstention grounds](citing Ouackenbush v. Allstate Ins. Co.. 517 U.S. 706,
721 (1996)).
To the extent Plaintiff is seeking to enjoin a pending state action by enjoining the
execution of a child support or other court order, the Anti-Injunction Act precludes such an
injunction. Section 2283 of Title 28 of the United States Code mandates that except in certain
circumstances “[a] court of the United States may not grant an injunction to stay proceedings in a
State court....” The Act constitutes “an absolute prohibition against any injunction of any state-court
proceedings, unless the injunction falls within one of the three specifically defined exceptions Act.”
Vendo Co. v. Lektro-Vend Corp.. 433 U.S. 623, 630 (1977) (plurality opinion). These three
4(...continued)
Bd. of License Comm’rs for Charles Ctv„ Md.. 827 F.3d 314,320 (4th Cir. 20161fRooker-Feldman
doctrine is not an impediment to the exercise of federal jurisdiction when the federal complaint raises
claims independent of, but in tension with, a state court judgment simply because the same or related
question was aired earlier by the parties in state court].
6

.0 l

exceptions are injunctions: (1) expressly authorized by statute; (2) necessary to aid the court’s
jurisdiction; or (3) required to protect or effectuate the court’ sj udgments. Chick Kam Chop v, Exxon
£firp„ 486 U.S. 140,146 (1988); Atlantic Coast Line R,R, Co. v. Board of Locomotive Ene’rs. 398
U.S. 281,287-88 (1970). None of these exceptions applies here.
Although Plaintiff vaguely makes allegations concerning driving under suspension
(DUS) and asserts that the statute which outlines the penalties for a DUS violation [S,C. Code Ann.
§ 56-01-0460 (Penalties for driving while license cancelled, suspended or revoked; route restricted
license)] is “void for vagueness” (see ECF No. 1 -1 at 8), he has not alleged that he has been arrested
on a charge of DUS. Further, to the extent that he is attempting to challenging such a charge, it
would be subject to summary dismissal based on the United States Supreme Court’s decision in
Heck v. Humphrey. 512 U.S. 477 (1994), in which the Court held that a state prisoner’s claim for
damages is not cognizable under § 1983 where success of the action would implicitly question the
validity of the conviction or duration ofthe sentence, unless he could demonstrate that the conviction
or sentence has been previously invalidated. Heck. 512 U.S. at 486-487. As Plaintiffhas not alleged
that he has a charge or conviction with a termination in his favor, any such claims are barred by Heck
and would be subject to dismissal. See Lambert v. Williams. 223 F.3d 257, 260-261 (4th Cir.
2000)[claim for malicious prosecution requires a showing that the initiation or maintenance of a
proceeding against the plaintiff was without probable cause to support it and a termination thereof
occurred in favor of the plaintiff], cert denied. 531 U.S. 1130 (2001); Brooks v. City of
Winston-Salem. 85 F.3d 178,183 (4th Cir. 1996)[Claim for malicious prosecution does “not accrue
until a favorable termination is obtained.”]; Roesch v. Otarola. 980 F.2d 850, 853-854 (2d Cir.

7

l992)[holding that requirement that a plaintiff receive favorable determination applies to claims of
false arrest, false imprisonment, and malicious prosecution].
Plaintiff also appears to allege that the suspension of his driver's license violates the
Commerce Clause. The Commerce Clause provides that “[t]he Congress shall have Power... To
regulate Commerce... among the several States.” U.S. Const, art. I, § 8, cl. 3. “It is well-established
that this affirmative grant of authority implies a “negative” or “dormant” constraint on the power of
the States to enact legislation that interferes with or burdens interstate commerce.” Brown v.
Hovatter. 561 F.3d 357,362-63 (4th Cir. 2009).
Determining whether a state law violates the dormant Commerce Clause involves a
two-tier analysis. Id. at 363. The first inquiry is “whether the state law discriminates against
interstate commerce.” Id. (emphasis omitted). Discrimination means “differential treatment of
in-state and out-of-state economic interests that benefits the former and burdens the latter.” Oregon
Waste Systems. Inc, v, Dep’t of Env’tl Quality. 511 U.S. 93,99 (1994) (emphasis added). If the state
law is nondiscriminatoiy, a court asks whether it “unjustifiably burdens interstate commerce.”
Brown. 561 F.3d at 363. The law “will be upheld unless the burden imposed on [interstate]
commerce is clearly excessive in relation to the putative local benefits.” Pike v. Bruce Church. Inc..
397 U.S. 137, 142 (1970). Here, Plaintiff has not alleged any facts to indicate a violation of the
Commerce Clause and fails to state a claim as to the Commerce Clause.
A general contention underlying Plaintiffs Complaint is a claim that he has a “right
of locomotion” or “freedom of movement” (See ECF No. 1-1 at 4, 9, 10) which he appears to
interpret as an unfettered right to drive a car or other motor vehicle. However, numerous courts have
stated that there is no fundamental right to drive. See Miller v, Reed. 176 F.3d 1202,1205-1206 (9th
8

Cir. 1999) [indicating that there is no fundamental right to drive]; Matthew v. Honish. 233 F. App’x.
563,564 (7th Cir. May 10,2007) [finding no fundamental right to drive a motor vehicle). While the
Supreme Court on occasion has suggested that some right to free movement may exist, “those
comments are only dicta—the cases involved travel across borders, not mere ‘locomotion.’”
Hutchins v. District of Columbia. 188 F.3d 531,537 (D.C.Cir. 1999) (citing cases).
Plaintiff also appears to be attempting to bring claims pursuant to the Hobbs Act.
However, the Supreme Court historically has been loath to infer a private right of action from “a bare
criminal statute,” because criminal statutes are usually couched in terms that afford protection to the
general public instead of a discrete, well-defined group.” Doe v. Broderick. 225 F.3d 440,447-48
(4th Cir. 2000) (citing Cort v. Ash. 422 U.S. 66, 80 (1975)). Where criminal statutes bear “no
indication that civil enforcement of any kind was available to anyone,” a civil complaint alleging
violations of such statutes cannot be sustained as a matter of law. Cort v. Ash. 422 U.S. at 80. Courts
have found no private cause of action under the Hobbs Act. Stanard v. Nveren. 658 F.3d 792, 794
(7th Cir. 2011 )[“The complaint also included a number of obviously frivolous claims; for example,
a violation of the Hobbs Act (a criminal statute that does not provide a private right of action)....”];
Wisdom v. First Midwest Bank, of Poplar Bluff. 167 F.3d 402,408-409 (8th Cir. 1999) [holding that
the Hobbs Act does not provide a private cause of action, noting that every court to consider the
issue had so concluded, and gathering cases]; Smith v. Bank of America. No. 2:14cv635,2015 WL
12591791 (E.D.Va. Apr. 20,2015)[noting that to the extent the plaintiffs attempted to bring a claim
under the Hobbs Act that it “is a criminal statute wholly unrelated to mortgages or the facts set forth
by [the plaintiffs], and it does not establish a private cause of action.”].

9

As noted above, Plaintiff fails to state any specific claims against Defendants,
including Defendant Cate. Further, as Judge Cate is a South Carolina family court judge, any claims
against her are subject to summary dismissal as Defendant Cate is entitled to absolute judicial
immunity from suit for all actions taken in her judicial capacity. See Mireles v. Waco. 502 U.S. 9
(19911: Stump v. Sparkman. 435 U.S. 349, 351-64 (1978); Presslv v. Gregory. 831 F.2d 514,517
(4th Cir. 1987)[a suit by South Carolina inmate against two Virginia magistrates]; Chu v. Griffith.
771 F.2d 79, 81 (4th Cir. 1985)[“It has long been settled that a judge is absolutely immune from a
claim for damages arising out of his judicial actions.”]; see also Sieeert v. Gil lev. 500 U.S. 226
(1991) [immunity presents a threshold question which should be resolved before discovery is even
allowed]; accord Bolin v. Storv. 225 F.3d 1234 (11th Cir. 2000)[discussing judicial immunity of
United States District Judges and United States Circuit Judges]. Thus, Defendant Cate is also entitled
to summary dismissal for this reason.
Although Plaintiffhas named Marcine Holmes as a Defendant, he has not alleged any
facts as to what Defendant Holmes allegedly did or did not do and has not asserted any facts
indicating that Holmes is a state actor subject to suit under § 1983. Because the United States
Constitution regulates only the government, not private parties, a litigant asserting a § 1983 claim
that his constitutional rights have been violated must first establish that the challenged conduct
constitutes “state action.” See, e.g.. Blum v. Yaretskv. 457 U.S. 991,1002 (1982), To qualify as state
action, the conduct in question “must be caused by the exercise of some right or privilege created
by the State or by a rule of conduct imposed by the State or by a person for whom the State is
responsible,” and “the party charged with the [conduct] must be a person who may fairly be said to
be a state actor.” Luear v. Edmondson Oil Co.. Inc.. 457 U.S. 922,937 (1982); see U. S. v, lnt’1 Bhd.
10

of Teamsters. Chauffeurs. Warehousemen and Helpers of Am., AFL-CIO. 941 F,2d 1292 (2d
Cir. 1991). Although a private individual or corporation can act under color of state law, his, her, or
its actions must occur where the private individual or entity is “a willful participant in joint action
with the State or its agents.” Dennis v. Sparks. 449 U.S, 24, 27-28 (1980). To the extent that
Defendant Holmes is a private individual, there are no allegations here to suggest that the actions of
this Defendant were anything other than purely private conduct.
Additionally, any request for monetary damages against Defendant DSS and against
any of the other Defendants in their official capacities, to the extent that such a Defendant is an
employee of the State of South Carolina, is barred by the Eleventh Amendment to the United States
Constitution, which divests this court ofjurisdiction to entertain a suit for damages brought against
the State of South Carolina or its integral parts. See Alden v. Maine. 527 U.S . 706, 712-13 (1999);
Seminole Tribe of Florida v. Florida. 517 U.S. 44.54 Cl 9961: Hans v. Louisiana. 134 U.S. 1 (1890);
see also Will v. Michigan Dep’t of State Police. 491 U.S. 58,71 (1989)[hoIding that claims against
a state official for actions taken in an official capacity are tantamount to a claim against the state
itself]. While the United States Congress can override Eleventh Amendment immunity through
legislation, Congress has not overridden the States’ Eleventh Amendment immunity in § 1983 cases.
See Quern v. Jordan. 440 U.S. 332,343 (1979). Further, although a State may itself consent to a suit
in a federal district court, Pennhurst State School & Hosp. v. Halderman. 465 U.S. 89, 99 & n. 9
(1984), the State of South Carolina has not consented to such actions. Rather, the South Carolina
Tort Claims Act expressly provides that the State of South Carolina does not waive Eleventh
Amendment immunity, consents to suit only in a court of the State of South Carolina, and does not
consent to suit in a federal court or in a court of another state. S.C. Code Ann. § 15-78-20(e).
11

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
Hakim Jakuin Morris,
.

Plaintiff,
vs.
Jocelyn B. Cate; Marcine Holmes; and
Department of Social Services (DSS),
Defendants.

)
)
)
)
)
)
)
)
)
)

C/A No.: 2:19-cv-2814 DCN
ORDER

The above referenced case is before this court upon the magistrate judge's recommenda­
tion that the complaint be dismissed without prejudice and without issuance and service of
process.
This court is charged with conducting a de novo review of any portion of the magistrate
judge's report to which a specific objection is registered, and may accept, reject, or modify, in
whole or in part, the recommendations contained in that report. 28 U.S.C. § 636(b)(1).
However, absent prompt objection by a dissatisfied party, it appears that Congress did not intend
for the district court to review the factual and legal conclusions of the magistrate judge. Thomas
v Am, 474 U.S. 140 (1985). Additionally, any party who fails to file timely, written objections
to the magistrate judge's report pursuant to 28 U.S.C. § 636(b)(1) waives the right to raise those
objections at the appellate court level. United States v. Schronce, 727 F.2d 91 (4th Cir. 1984),
.cert, denied, 467 U.S. 1208 (1984 ).

Objections to the Magistrate Judge’s Report and

‘In Wright v. Collins, 766 F.2d 841 (4th Cir. 1985), the court held "that a pro se litigant
must receive fair notification of the consequences of failure to object to a magistrate judge's
report before such a procedural default will result in waiver of the right to appeal. The notice
must be 'sufficiently understandable to one in appellant's circumstances fairly to appraise him
of what is required.'" Id. at 846. Plaintiff was advised in a clear manner that his objections
had to be filed within ten (10) days, and he received notice of the consequences at the
appellate level of his failure to object to the magistrate judge's report.

Recommendation were timely filed on February 4, 2020 by plaintiff.
A de novo review of the record indicates that the magistrate judge's report accurately
summarizes this case and the applicable law. Accordingly, the magistrate judge’s Report and
Recommendation is AFFIRMED, and the complaint is DISMISSED without prejudice and
without issuance and service of process.
AND IT IS SO ORDERED.

David C. Norton
United States District Judge
February 6, 2020
Charleston, South Carolina
NOTICE OF RIGHT TO APPEAL
The parties are hereby notified that any right to appeal this Order is governed by Rules
3 and 4 of the Federal Rules of Appellate Procedure

